                  U.S. Department of Agriculture

                     Office of Inspector General
                                Northeast Region




        Audit Report

     Followup Audit of the
Management and Oversight of the
Packers and Stockyards Program




                      Report No. 30016-0002-Hy
                                     June 2009
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:          June 29, 2009

REPLY TO
ATTN OF:       30016-0002-Hy

TO:            J. Dudley Butler
               Administrator
               Grain Inspection, Packers and Stockyards Administration

ATTN:          Joanne C. Peterson
               Management Support Staff

FROM:          Robert W. Young        /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Followup Audit of the Management and Oversight of the Packers and Stockyards
               Program


This report presents the results of our followup audit of the management and oversight of the
Packers and Stockyards Program. Your response to the official draft, dated June 15, 2009, is
included as exhibit D. Excerpts of the response and the Office of Inspector General’s position are
incorporated into the Findings and Recommendations section of the report. Based on your
response, we were able to reach management decisions on all of the report’s seven
recommendations. Please follow your agency’s internal procedures in forwarding documentation
for final action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Followup Audit of the Management and Oversight of the Packers and Stockyards
Program (Audit Report No. 30016-0002-Hy)

Results in Brief                     We conducted this audit in response to requests by Congress and the former
                                     Administrator of the Grain Inspection, Packers and Stockyards
                                     Administration (GIPSA) to follow up on our prior audit. 1 To satisfy these
                                     requests, we assessed GIPSA’s management and oversight of the Packers and
                                     Stockyards Program (P&SP). Specifically, we assessed the working
                                     relationship between GIPSA and the Office of the General Counsel (OGC).
                                     Additionally, we determined if effective corrective actions were implemented
                                     in response to our prior audit recommendations. Overall, we found that
                                     GIPSA’s oversight of P&SP has improved since our prior audit and it has a
                                     good working relationship with OGC. However, opportunities remain for
                                     GIPSA to further improve program operations by strengthening management
                                     and oversight of investigations and fully implementing agreed upon
                                     corrective actions.
                                    GIPSA’s P&SP is responsible for maintaining fair trade practices in the
                                    marketing of livestock and poultry, providing financial protection for
                                    participants in livestock transactions, and ensuring open competitive
                                    marketing conditions for livestock and meat. In January 2006, we reported
                                    that P&SP had difficulties defining and tracking investigations; planning and
                                    conducting competition and complex investigations; and making agency
                                    policy.
                                     In July 2006, the Ranking Member of the United States (U.S.) Senate
                                     Committee on Agriculture, Nutrition, and Forestry requested that the Office
                                     of Inspector General (OIG) determine if OGC was working with GIPSA to
                                     enforce competition provisions of the Packers and Stockyards Act of 1921
                                     (the Act) and whether there were obstacles to prevent OGC and GIPSA from
                                     working together on such enforcement (see exhibit A). In May 2007, the
                                     former GIPSA Administrator requested that OIG perform a followup review
                                     to assess the progress GIPSA had made in improving management controls
                                     and strengthening program policy and delivery.

                                     We found that GIPSA has made efforts to better manage and oversee P&SP.
                                     This includes implementation of procedures that define investigations,
                                     removal of barriers in planning and conducting investigations, and
                                     improvement in policy decision responsiveness. Management anticipates that
                                     investigation tracking will be improved as part of its business process
                                     reengineering system, Packers and Stockyards Automated System (PSAS),



1
    Management and Oversight of the Packers and Stockyards Program, Audit No. 30601-01-Hy, issued January 10, 2006.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                      Page i
                                       which is being implemented during calendar years 2008 and 2009. 2 PSAS
                                       will maintain information for entities regulated by P&SP, retain data of tests
                                       of livestock scales, and track investigative and regulatory activity. We could
                                       not fully assess PSAS because it is currently under development; however,
                                       we did find it is being developed according to the requirements specified in
                                       the contract’s statement of work.

                                       P&SP’s Policy and Litigation Division (PLD) acts as a liaison between P&SP
                                       regional offices and OGC. When GIPSA receives novel or complex 3
                                       competition investigations, they refer these cases to OGC for action. GIPSA
                                       has also taken steps to foster an improved working relationship with OGC to
                                       include greater cooperation in investigation planning and development as
                                       well as holding regular meetings between GIPSA and OGC senior
                                       management. However, GIPSA can further improve program operations by:
                                       (1) improving the management and oversight of P&SP investigations;
                                       (2) ensuring program guidance is consistent; and (3) fully implementing
                                       agreed upon actions to prior OIG audit recommendations.

                                       Investigation Management

                                       We identified significant delays in investigation resolution 4 at GIPSA
                                       Headquarters, regional offices, and OGC. For example, we found that 41 of
                                       123 investigations forwarded to Headquarters for enforcement and referred to
                                       OGC for legal action were without resolution for 500 or more elapsed days as
                                       of December 31, 2007. 5 Based on our prior audit recommendations, P&SP
                                       implemented procedures for recording investigation-related data; however, it
                                       did not include controls to identify and resolve investigations in a timely
                                       manner. For example, P&SP did not formally assign responsibility for
                                       monitoring the progress of investigations. Although P&SP is currently
                                       developing and implementing PSAS, at the time of our review the systems in
                                       place at P&SP did not adequately track investigations. P&SP Headquarters,
                                       P&SP regional offices, and OGC used different databases to track and
                                       manage investigations. The databases were fragmented, making it difficult to
                                       track investigation progress from beginning to end. The fragmented databases
                                       limited our ability to fully assess GIPSA’s investigation management.


2
    In Fall 2008, GIPSA rolled out the Automated Management System to replace three current systems: (1) the business identification system, which is
    used to maintain data of business entities regulated by P&SP; (2) a scales database, which is used to keep records of livestock scales and their testing
    data; and (3) the Regulatory Activity and Investigations (R&I) Log, which is used to maintain data from investigation and regulatory activities. The
    workflow tracking portion of PSAS, which will also be used by OGC, is expected to be deployed in early Summer 2009.
3
    P&SP defines complex investigations as those that involve (1) more than one unit or region, (2) a substantial number or amount of resources, (3) a
    major firm, or (4) a novel legal theory.
4
    When violations of the Act occur, GIPSA may issue a Notice of Violation (NOV) or stipulation agreement. NOVs are forms giving regulated entities
    official notice of the alleged violations found. Stipulation agreements are legal agreements citing violation(s) found and the civil penalty amount GIPSA
    will accept in settlement of the alleged violation(s) without pursuing a formal action through OGC. Entities may agree to the stipulation and waive their
    right to a hearing. When GIPSA receives a complex competition violation, it refers the case to OGC, who will pursue administrative or other court
    actions.
5
    Our audit examined data regarding P&SP operations from October 1, 2005, to December 31, 2007, the most current data available when we initiated
    our review.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                                  Page ii
                                     GIPSA has a working relationship with OGC. When investigations are
                                     forwarded by the regions to GIPSA Headquarters, PLD determines if the case
                                     will be resolved internally with the issuance of a stipulation agreement or
                                     forwarded to OGC for administrative or other court action. However,
                                     GIPSA’s performance measures do not include milestone dates for
                                     investigation resolution or require regular followup with OGC to facilitate
                                     investigation resolution. During our review, we found that cases referred to
                                     OGC were often delayed. We reviewed 83 cases referred to OGC and found
                                     that 15 were open 600 or more elapsed days. One case remained open for
                                     over a year after the attorney assigned the case terminated employment with
                                     OGC, because she did not notify the Assistant General Counsel of OGC’s
                                     Trade Practices Division that she had an open case. The regional offices
                                     expressed frustrations with the delays because, at times, OGC would call at a
                                     much later date for updated information or inform them that too much time
                                     had passed and close the case.

                                     In the regions, staff did not ensure that Notice of Violation (NOV) followup
                                     investigations were timely performed. According to agency guidance, P&SP
                                     should follow up on NOVs within 180 days. P&SP prioritizes work
                                     according to goals and performance measures outlined in the Strategic
                                     Business Plan (SBP), but the SBP does not contain specific measures for
                                     completing NOV followup. As a result, P&SP investigations have a reduced
                                     deterrent effect because of delays in enforcing compliance with the Act.

                                     Guidance Issuance

                                     In response to our prior recommendation, GIPSA implemented a structure for
                                     receiving, reviewing, and acting on policy issues and requests for guidance;
                                     however, the guidance the agency issued was not always consistent. This
                                     occurred because GIPSA did not have a defined process for reviewing and
                                     clearing new and revised program guidance to ensure that it did not conflict
                                     with other guidance documents. Since our prior audit, GIPSA issued or
                                     revised 53 policy documents (i.e., directives, standard operating procedures,
                                     and the employee manual). Management told us that they focused on
                                     implementing policy quickly to correct the deficiencies noted. Our review
                                     found four instances of inconsistent guidance. For example, three different
                                     policy documents granted authority to three different positions (i.e., the
                                     Industry Analysis Division Director, regional directors, and regional unit
                                     supervisors) 6 to approve investigative work plans. Inconsistent program
                                     guidance could negatively impact the work conducted in an investigation and
                                     compromise its results.




6
    Unit Supervisors oversee those P&SP Regional employees, such as auditors or marketing specialists, who perform investigations and other regulatory
    functions.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                           Page iii
                                    Prior Recommendations

                                    P&SP did not completely implement corrective actions for 4 of 10 prior audit
                                    recommendations (see exhibit B). The agency implemented policies to
                                    address our prior recommendation; however, P&SP did not have a process in
                                    place to ensure these policies were carried out. GIPSA previously agreed to
                                    implement a process to review investigative findings and monitor industry
                                    activity to determine if regulatory reforms are needed. Additionally, GIPSA
                                    agreed to implement an internal review function. However, GIPSA
                                    management did not follow up with the regions or divisions to ensure that
                                    corrective actions were completed. As a result of not successfully
                                    implementing corrective actions, P&SP did not have accurate and complete
                                    data for managing its investigations or a process for monitoring the need for
                                    regulatory change.

                                    OIG and the Government Accountability Office have previously reported on
                                    weaknesses in GIPSA’s processes for investigating cases of a complex or
                                    anti-competitive nature. In response, GIPSA has implemented analytical
                                    reviews of the structural characteristics of markets to identify
                                    anti-competitive practices. This included monitoring of market related
                                    conditions such as procurement and sales patterns and pricing to identify
                                    potential anti-competitive activity for investigation. Although we did not
                                    analyze its methodologies, 7 GIPSA’s current data demonstrate that
                                    competition cases are rare. During the scope of our review
                                    (October 1, 2005 through December 31, 2007), P&SP data identified 43 of
                                    2,068 investigations (2 percent) related to anti-competitive practices. GIPSA
                                    is currently revisiting the underlying methodologies it uses to monitor
                                    livestock and poultry markets and anticipates implementing revised methods
                                    in the first quarter of calendar year 2009 (see exhibit C).

Recommendations
In Brief                            GIPSA should work to strengthen controls over investigation resolution. This
                                    includes establishing controls to identify and timely resolve investigations.
                                    Additionally, GIPSA should develop procedures to monitor NOV followup to
                                    ensure it is initiated within 180 days. The agency needs to implement a
                                    defined process for reviewing, approving, and issuing program guidance to
                                    ensure consistency and implement an effective internal review function.

Agency Response                     GIPSA agreed with all seven report recommendations, although officials
                                    noted that achievement of some of these would also require action by other
                                    agencies. We have incorporated GIPSA’s response in the Findings and
                                    Recommendations section of this report, along with the OIG position.
                                    GIPSA’s response is included as exhibit D.
7
    We did not examine GIPSA’s methodologies because GIPSA officials acknowledge that their current analytical reviews did not always identify
    anti-competitive cases. They anticipate implementing revised methods in Spring 2009.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                   Page iv
OIG Position        Based on GIPSA’s response, we were able to reach management decision on
                    all recommendations in this report.




USDA/OIG-Audit No. 30016-0002-Hy                                                    Page v
Abbreviations Used in This Report

The Act                 Packers and Stockyards Act of 1921
C&I Log                 Complaints & Investigations Log
FY                      Fiscal Year
GAO                     Government Accountability Office
GIPSA                   Grain Inspection, Packers and Stockyards Administration
IAD                     Industry Analysis Division
NOV                     Notice of Violation
OGC                     Office of the General Counsel
OIG                     Office of Inspector General
P&SP                    Packers and Stockyards Program
PLD                     Policy and Litigation Division
PSAS                    Packers and Stockyards Automated System
R&I Log                 Regulatory Activity and Investigations Log
SBP                     P&SP’s Strategic Business Plan 2007-2009
U.S.                    United States
USDA                    U.S. Department of Agriculture




USDA/OIG-Audit No. 30016-0002-Hy                                                  Page vi
Table of Contents

Executive Summary ................................................................................................................................. i 

Abbreviations Used in This Report ...................................................................................................... vi 

Background and Objectives ................................................................................................................... 1 

Findings and Recommendations............................................................................................................ 4 

    Section 1.           Oversight of P&SP Activities .................................................................................... 4 

        Finding 1  Improvements Needed in Managing Investigations..................................................... 5 
                         Recommendation 1 .......................................................................................... 8 
                         Recommendation 2 .......................................................................................... 9 
                         Recommendation 3 .......................................................................................... 9 
        Finding 2  GIPSA Should Ensure Consistency in P&SP Guidance ............................................ 10 
                         Recommendation 4 ........................................................................................ 12 
                         Recommendation 5 ........................................................................................ 12 

    Section 2.           Prior Recommendations Not Completely Implemented....................................... 14 

        Finding 3  ………. ....................................................................................................................... 14 
                      Recommendation 6 ........................................................................................ 17 
                      Recommendation 7 ........................................................................................ 18 

Scope and Methodology ........................................................................................................................ 19 

Exhibit A – Congressional Concerns Regarding P&SP Operations ................................................ 22 
Exhibit B – Implementation of Prior Audit Recommendations ....................................................... 24 
Exhibit C – Efforts to Identify Potential Anti-Competitive Activity ............................................... 25 
Exhibit D – Agency Response .............................................................................................................. 26 




USDA/OIG-Audit No. 30016-0002-Hy                                                                                                         Page vii
Background and Objectives
Background                             The U.S. Department of Agriculture’s (USDA) Grain Inspection, Packers and
                                       Stockyards Administration (GIPSA) administers two program activities, the
                                       Federal Grain Inspection Program and the Packers and Stockyards Program
                                       (P&SP), which play vital roles in American agriculture. GIPSA’s programs
                                       and services are intended to promote a competitive, efficient market structure
                                       and to facilitate the marketing of agricultural products in domestic and
                                       international markets.

                                       GIPSA is responsible for enforcing the Packers and Stockyards Act of
                                       1921 (the Act), as amended. The Act prohibits unfair, deceptive, and unjust
                                       discriminatory practices by market agencies, dealers, stockyards, packers,
                                       swine contractors, and live poultry dealers in the livestock, meat packing, and
                                       poultry industries. Through its oversight activities, including monitoring
                                       programs, reviews, and investigations, 8 GIPSA fosters fair competition,
                                       provides payment protection, and guards against deceptive and fraudulent
                                       trade practices that affect the movement and price of livestock and their
                                       products. GIPSA investigates such matters as whether livestock and poultry
                                       purchasers pay producers timely; maintain sufficient funds to pay producers;
                                       complete and file registrations and annual reports; and maintain appropriate
                                       scales for weighing livestock and poultry.

                                       The P&SP Headquarters office in Washington, D.C. is comprised of two
                                       divisions: the Policy and Litigation Division (PLD) and the Industry Analysis
                                       Division (IAD). PLD develops regulations, policies, and procedures, and
                                       provides litigation support. PLD also provides enforcement of the Act
                                       through stipulation agreements. IAD provides economic advice to agency
                                       officials on broad policy issues and the economic implications of various
                                       programs, policies, and industry practices.

                                       P&SP also operates three regional offices located in Atlanta, Georgia
                                       (Eastern regional office); Des Moines, Iowa (Midwestern regional office);
                                       and Aurora (Denver), Colorado (Western regional office). Each office is
                                       responsible for carrying out P&SP activities and functions and for
                                       investigating potential violations of the Act within its assigned region
                                       identified by State geographic boundaries. Oversight of the livestock, meat,
                                       and poultry industries is assigned to specific regional offices: the poultry
                                       industry (Eastern); the cattle and sheep industries (Western); and the hog
                                       industry (Midwestern).


8
    In order to enforce the Act, P&SP conducts compliance activities (routine checks) and investigations of regulated entities. Investigations are primarily
    initiated when possible violations of the Act are discovered. Violations are resolved by P&SP through the issuance of Notice of Violation (NOV), NOV
    followup, and stipulation agreements. Occasionally, P&SP works with Office of the General Counsel (OGC) to resolve investigations through
    administrative or other court actions.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                                 Page 1
                                     In September 2000, the Government Accountability Office (GAO) released a
                                     report 9 on P&SP activities that followed up on the recommendations made by
                                     the Office of Inspector General (OIG) in an earlier report 10 and supported our
                                     conclusions. GAO found that GIPSA’s investigations were led and conducted
                                     primarily by economists without the formal involvement of attorneys from
                                     the Office of the General Counsel (OGC). In addition, GIPSA’s investigative
                                     processes and practices were designed for traditional trade practice and
                                     financial issues that the agency had emphasized for years and thus were not
                                     suited for the more complex anti-competitive practices that need to be
                                     addressed.

                                     In January 2006, we reported 11 that GIPSA had difficulties defining and
                                     tracking investigations, planning and conducting competition and complex
                                     investigations, and making agency policy. In response to our audit
                                     recommendations regarding the tracking of investigations, the agency is
                                     developing the Packers and Stockyards Automated System (PSAS). Once
                                     implemented, the PSAS data warehouse will be a single system of record and
                                     replace the current P&SP data systems: (1) the business identification system,
                                     which is used to maintain data of business entities regulated by P&SP; (2) a
                                     scales database, which is used to keep records of livestock scales and their
                                     testing data; (3) the Regulatory Activity and Investigations (R&I) Log, which
                                     is used to maintain data from investigation and regulatory activities; and
                                     (4) the Litigation Referral Pending Database. OGC is participating as a user
                                     of the new R&I case tracking module within PSAS. As of February 2009, the
                                     business identification system and the scales and weighing databases were
                                     merged into PSAS and the original systems have been archived. The R&I
                                     Log is still active; however, it is only in operation until current open cases are
                                     closed. As of January 2009, new cases are entered directly into PSAS. The
                                     module for industry annual reports went online in April 2009. The workflow
                                     tracking portion of PSAS for Headquarters enforcement is expected to be
                                     deployed in early summer 2009.

                                     In July 2006, the Ranking Member of the U.S. Senate Committee on
                                     Agriculture, Nutrition, and Forestry requested that OIG determine if OGC
                                     was working with GIPSA to enforce competition provisions of the Act and
                                     whether there were obstacles to prevent OGC and GIPSA from working
                                     together on such enforcement (see exhibit A). Additionally, in May 2007, the
                                     former GIPSA Administrator requested that we conduct a followup of our
                                     2006 audit to assess the progress GIPSA made in improving management
                                     controls.



9
     Actions Needed to Improve Investigations of Competitive Practices, RCED-00-242, issued September 21, 2000.
10
     Agency Efforts to Monitor and Investigate Anti-competitive Practices in the Meatpacking Industry, Evaluation Report No. 30801-01-Ch, issued
     February 26, 1997.
11
     Management and Oversight of the Packers and Stockyards Program, Audit No. 30601-01-Hy, issued January 10, 2006.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                      Page 2
Objectives          The overall objective of this audit was to evaluate GIPSA’s management and
                    oversight of P&SP to ensure that anti-competitive and unfair practices in the
                    livestock and poultry markets are effectively examined, reported, and
                    resolved. We also:

                    •   Determined if OGC and GIPSA effectively collaborated to enforce the
                        Act’s competition provisions; and

                    •   Determined if effective corrective actions were implemented in response
                        to our prior audit, Management and Oversight of the Packers and
                        Stockyards Program (Audit Report No. 30601-0001-Hy, issued
                        January 2006).




USDA/OIG-Audit No. 30016-0002-Hy                                                          Page 3
Findings and Recommendations
Section 1.              Oversight of P&SP Activities

                                        Through P&SP, GIPSA is responsible for performing compliance reviews of
                                        operations subject to the Act, developing and implementing program
                                        guidance to promote fair business practices, and ensuring a fair competitive
                                        market for livestock, meat, and poultry. When violations of the Act occur,
                                        GIPSA regional offices issue a Notice of Violation (NOV). 12 When repeat
                                        offenses of the Act occur, or persons subject to the Act commit certain
                                        financial or trade practice violations, the regional offices forward these cases
                                        to PLD. PLD may offer offenders stipulation agreements. 13 In the event that
                                        PLD does not receive a response to the stipulation agreement, the case is then
                                        referred to OGC for administrative action. The agency also collaborates with
                                        OGC to resolve novel, complex, 14 or competition violations. Upon the
                                        request of P&SP, OGC takes formal administrative action in instances of
                                        fraudulent acts, failure to pay for livestock, and insolvency and other
                                        violations of the Act.

                                        To accomplish its responsibilities, GIPSA prioritizes work according to the
                                        P&SP Strategic Business Plan (SBP) 2007-2009. GIPSA revised the SBP in
                                        2007 to account for internal changes and to incorporate agency responses to
                                        reviews conducted in 2006. 15 The SBP includes goals, objectives, activities,
                                        and performance measures needed to attain desired results.

                                        We found that since our prior audit, GIPSA developed and implemented
                                        controls designed to enhance the overall effectiveness of P&SP. This
                                        included implementing procedures that defined investigations, removing
                                        barriers to plan and conduct investigations, and improving policy decision
                                        responsiveness. However, management could further strengthen program
                                        oversight. While we found that GIPSA effectively initiated compliance
                                        reviews, the agency needs to monitor and ensure the timeliness of the
                                        investigation process and the consistency of issued guidance.

                                        Additionally, we found that the databases in use during our review were
                                        fragmented. The regions and OGC did not use the same database that was in
                                        use at PLD to track investigative work. To remedy this problem, GIPSA is in
                                        the process of implementing PSAS, an automated system, which will replace
                                        previous databases. Management anticipates that the new system will

12
     NOVs are forms giving regulated entities official notice of the alleged violations found. It is the Agency’s policy to issue NOVs for first offenses in an
     attempt to achieve compliance without formal action.
13
     Stipulation agreements are legal agreements citing violation(s) found and the civil penalty amount GIPSA will accept in settlement of the alleged
     violation(s) without pursuing a formal action through OGC. Entities may agree to the stipulation and waive their right to a hearing.
14
     P&SP defines complex investigations as those that involve (1) more than one unit or region, (2) a substantial number or amount of resources, (3) a
     major firm, or (4) a novel legal theory.
15
     Subsequent to the 2006 OIG audit, an employee survey was conducted through the Office of Personnel Management’s Organizational Assessment
     Survey. Additionally, the Animal and Plant Health Inspection Service conducted a Management Review of P&SP Headquarters Structure and Staffing.
     These reviews provided impetus for GIPSA management to undertake a number of initiatives.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                                    Page 4
                                   improve investigation tracking. At the time of our review, PSAS was still
                                   under development; however several modules are currently in operation,
                                   including the module for the industry annual reports, which went online in
                                   April 2009. The tracking portion for Headquarters enforcement is scheduled
                                   for deployment in Summer 2009.

Finding 1                          Improvements Needed in Managing Investigations

                                   We found that 41 of 123 investigations forwarded to Headquarters for
                                   enforcement and referred to OGC for legal action were without resolution for
                                   500 or more elapsed days as of December 31, 2007. 16 As required by agency
                                   policy, 17 regional staff did not establish an effective followup program to
                                   ensure that followup investigations were conducted within 6 months
                                   (180 days) of the date of the NOV to the alleged violator. Based on prior
                                   audit recommendations, GIPSA implemented procedures for recording
                                   investigation-related data; however, the agency did not include controls to
                                   resolve investigations in a timely manner. For example, P&SP did not
                                   formally assign responsibility for monitoring the progress of investigations.
                                   Although GIPSA uses its SBP to guide and assess its investigative activities,
                                   the SBP did not include adequate performance measures to ensure that
                                   investigative activities are completed within designated timeframes. As a
                                   result, P&SP investigations have a reduced deterrent effect because of delays
                                   in enforcing compliance with the Act.

                                   GIPSA personnel stated that they prioritized work according to measurable
                                   items in the SBP because standard operating procedures were not always in
                                   place. The SBP outlined four goals to satisfy the program mission, one of
                                   which is to attain compliance through investigation and enforcement.
                                   Specifically, GIPSA sought to expedite the timely completion of P&SP
                                   investigations. Some of the performance measures in the SBP provide targets
                                   that should be met by employees, while others are in the SBP to establish
                                   benchmarks for completing tasks. The goals in the SBP related to resolving
                                   investigations are designed to establish benchmarks by identifying the
                                   average time for conducting and resolving investigations. It does not establish
                                   specific timeframes for followup action by GIPSA management officials
                                   once investigations are forwarded to Headquarters.

                                   •     Investigations Referred to Headquarters

                                         GIPSA’s PLD provides litigation support through the review of regional
                                         investigations, development of stipulation agreements, hearing
                                         preparation, settlement negotiations, and testimony at hearings. PLD
16
   Our audit examined data regarding P&SP operations from October 1, 2005, to December 31, 2007, the most current data available when we initiated
   our review.
17
   P&SP Employee Manual, “Investigations,” dated October 25, 2007, and P&SP Standard Operating Procedure Regional Offices -2, “Investigations,”
   dated May 31, 2007.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                        Page 5
                       works with regional office staff and acts as a liaison to OGC. When
                       investigative cases are referred to Headquarters for enforcement actions,
                       PLD reviews the cases to determine if the agency can take enforcement
                       action through a stipulation agreement or if the case needs to be
                       forwarded to OGC for administrative or other court action. However,
                       GIPSA procedures do not include milestone dates for timely issuing
                       stipulation agreements or followup actions with OGC when these dates
                       are not met. For example, once an investigation is forwarded to OGC,
                       GIPSA should follow up on the status of that investigation after a set
                       period of time. We obtained data from PLD for all investigative activities
                       to identify the time elapsed since open investigations were received by
                       Headquarters. Per PLD data, 41 of 123 investigations forwarded to
                       Headquarters for enforcement and referred to OGC for legal action were
                       without resolution for 500 or more elapsed days as of December 31,
                       2007.

                       GIPSA has a working relationship with OGC; however, GIPSA’s
                       performance measures do not require regular followup with OGC to
                       facilitate investigation resolution. GIPSA also did not formally assign
                       specific responsibilities for monitoring and following up on the status of
                       investigations to an appropriate manager and was not always successful
                       in that task. There is no requirement for managers to notify senior
                       management of delays or impediments to investigation resolution at
                       OGC. Our review of OGC data determined that of 83 open cases at OGC
                       as of December 31, 2007, 15 trade practice cases were open for 600 or
                       more elapsed days.

                       When cases are referred to OGC for administrative action, there is a
                       collaborative process that occurs between the OGC attorney and P&SP
                       staff. During this process, which may include requests from OGC for
                       supplemental information, time lapses can occur. During fieldwork, we
                       found cases referred to OGC were delayed for different reasons. In one
                       instance, an OGC attorney terminated employment and did not inform
                       management that she was assigned a particular investigation. An OGC
                       official indicated that the original attorney left in 2005 and a new attorney
                       was not assigned until March 2007, causing the case to remain open for
                       over a year. Another case remained open because the file was lost.
                       Another case had to be reassigned because the OGC attorney could not
                       travel. Additionally, we found instances where cases that were referred to
                       OGC were subsequently returned to PLD because too much time passed
                       between the opening of the case and OGC review or action. For example,
                       a case was forwarded to OGC in February 2007. In January 2008, the
                       case was returned to the region, because OGC was concerned that the
                       supporting documentation did not identify penalties under the Act. The
                       regional offices expressed frustrations with these delays.

USDA/OIG-Audit No. 30016-0002-Hy                                                            Page 6
                                            We recognize that delays could occur as a normal part of the litigation
                                            process. However, untimely case completion impacts the effectiveness of
                                            PS&P investigative activity in serving as a deterrent for entities subject to
                                            the Act. In addition, employees at the regional office level expressed
                                            frustration with delays in enforcement processing and the occasional need
                                            to update investigation case files to show the current status of violations.
                                            P&SP guidance 18 requires division directors to develop the appropriate
                                            tools for agency employees to log, track, and report on various types of
                                            activities; however, it does not require timely resolution of investigations
                                            at the Headquarters level. P&SP was not fully successful in reducing
                                            delays of investigation processing at Headquarters by PLD or OGC.

                                      •     NOV Followup

                                            P&SP’s guidance 19 to the regional offices states that followup should be
                                            conducted within 6 months (180 days) of the date the NOV is received by
                                            the alleged violator. Followup investigations assist in ensuring that
                                            entities in violation of the Act have brought their operations into
                                            compliance. However, we found that NOV followups were not always
                                            initiated within 180 days. As previously stated, P&SP prioritizes work
                                            according to goals and performance measures in the SBP, and NOV
                                            followup is not among the performance measures. Based on data
                                            provided, two regional offices did not timely initiate followup action for
                                            36 of 66 (55 percent) cases requiring followup before
                                            December 31, 2007. During the period of our fieldwork, we found that
                                            GIPSA revised its policy on NOV followup and gave regional directors
                                            discretionary authority to follow up on NOVs based on the following
                                            criteria: severity/seriousness of violation; size of business and compliance
                                            history; and good faith effort to demonstrate compliance. However,
                                            followup was required for all alleged violations for failure to pay
                                            producers. 20 Nine of the 36 cases without timely followup were payment
                                            cases. The third regional office did not include information in the regional
                                            tracking system to show when the followup was initiated; therefore, we
                                            could not analyze the timeliness of NOV followup in that region.

                                            During our review, we found that corrective actions for NOVs are not
                                            always taken. For example, one regional office’s fiscal year (FY)
                                            2007 followup investigations found that 14 of 68 violations (21 percent)
                                            were not corrected. These followup investigations were conducted within
                                            the 6 month timeframe. Of these 14 violations, 7 related to third party
                                            custodial bank accounts 21 that contain the proceeds of livestock sales for

18
     P&SP Directive 9700-2 “Investigations, Compliance, and Monitoring,” dated January 5, 2006.
19
     P&SP Employee Manual, “Investigations,” dated October 25, 2007, and P&SP Standard Operating Procedure Regional Office-2, “Investigations,”
     dated May 31, 2007.
20
     Standard Operating Procedure Regional Office-2, dated July 1, 2008, and Employee Manual Chapter 6 “Investigations” dated April 30, 2008.
21
     Custodial accounts are trust accounts held by market agencies selling livestock on commission. These agencies have a fiduciary responsibility to
     deposit, hold, and withdraw the proceeds from sale transactions in a specific manner which protects the purchasers and sellers of livestock.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                           Page 7
                       the benefit of livestock sellers. A timely followup program improves the
                       likelihood that entities subject to the Act will correct identified violations.

                    GIPSA should ensure that responsibility for investigation resolution is
                    appropriately assigned and implement a process to review progress towards
                    resolution as investigations age. In addition, the agency should establish
                    timeliness measures for investigation resolution within Headquarters.
                    Developing milestone dates for following up on investigation progress at
                    OGC would facilitate the investigative process. Also, GIPSA should establish
                    provisions to measure the timeliness of NOV followup.

Recommendation 1
                    Develop and implement controls to monitor the timely processing of
                    investigations submitted to Headquarters for action. These controls should
                    include formal assignment of responsibility to an appropriate manager and
                    periodic reporting to senior management to identify and mediate impediments
                    preventing timely action.

                    Agency Response

                    GIPSA officials concurred with the recommendation, stating that their new
                    automated system—Packers and Stockyards Automated System (PSAS)—
                    now monitors investigations from their initiation in the field to the point of
                    referral to Headquarters and automatically flags investigations that exceed
                    established timeframes. The PLD/OGC Enforcement Module, scheduled to
                    be deployed by October 1, 2009, will then track investigations from the time
                    of receipt in Headquarters through final resolution. These systems will
                    provide GIPSA with real-time data on the progress of investigations.
                    Everyone involved in a flagged investigation, from the front-line investigator
                    to the Deputy Administrator for P&SP, will be notified of unmet milestones.

                    Also, as of May 28, 2009, the PLD director’s position description has been
                    amended to include responsibility for monitoring the progress of
                    investigations referred to Headquarters, and for reporting developments to
                    senior management. Finally, if needed, the GIPSA Deputy Administrator can
                    use regularly scheduled weekly meetings with the OGC Assistant General
                    Counsel to identify investigations that are exceeding established completion
                    timelines and work to mediate impediments to their resolution.

                    OIG Position

                    We accept GIPSA’s management decision.




USDA/OIG-Audit No. 30016-0002-Hy                                                              Page 8
Recommendation 2
                    Establish milestone elapsed days for contact between P&SP and OGC to
                    ensure that cases pending action from OGC are completed timely and take
                    action when milestones are not met.

                    Agency Response

                    The PLD/OGC Enforcement Module, to be deployed by October 1, 2009,
                    will include timelines with milestones for P&SP to review and submit cases
                    to OGC, and will track timelines and milestones at OGC and the Department
                    of Justice. Using the module, both GIPSA and OGC will see PSAS’
                    milestone tracking function, which flags any investigations that exceed
                    established timeframes for either an entire investigation or for specified
                    portions of it. GIPSA and OGC will collaboratively use this module’s
                    workflow management capabilities to track cases from receipt in
                    Headquarters to final resolution. Standard operating procedures and
                    electronic workflow requirements to formalize and outline the interaction
                    between PLD and OGC were completed on February 18, 2009.

                    OIG Position

                    We accept GIPSA’s management decision.

Recommendation 3
                    Develop and implement procedures to monitor NOV followup to ensure that
                    it is initiated within 180 days and violations are corrected or appropriately
                    pursued to ensure correction.

                    Agency Response

                    GIPSA regional directors prioritize investigations based on the relative
                    significance of a given violation and its demands on investigative time and
                    resources. If the regional director determines that a followup is required, the
                    case is automatically assigned by PSAS as an NOV followup investigation
                    and the 180-day clock starts for the followup investigation to be completed.
                    Subsequent to the agency’s official response, a GIPSA official clarified that
                    they had reduced the 180-day requirement to 120 days. PSAS tracks the
                    investigation until completed. The PSAS workflow document specifies
                    timeframes for NOV followup; assigns tasks for all involved, from lead agent
                    to regional director; and requires direct oversight and action by the regional
                    director to close an NOV. The agency published procedures to monitor timely
                    NOV followup in June 2008, and implemented procedures to monitor timely
                    NOV followup in an electronic workflow in January 2009.




USDA/OIG-Audit No. 30016-0002-Hy                                                            Page 9
                                      OIG Position

                                      We accept GIPSA’s management decision.

Finding 2                             GIPSA Should Ensure Consistency in P&SP Guidance

                                      In response to our prior recommendation, GIPSA implemented a structure for
                                      receiving, reviewing, and acting on policy issues and requests for guidance;
                                      however, the guidance the agency issued was not always consistent. This
                                      occurred because GIPSA did not have a defined process for reviewing and
                                      clearing new and revised program guidance to ensure that it did not conflict
                                      with other guidance documents. Since our prior audit, GIPSA issued or
                                      revised 53 policy documents. 22 Management told us that they focused on
                                      implementing policy quickly to correct the deficiencies noted. Our review
                                      found four instances of inconsistent guidance. For example, three different
                                      policy documents granted authority to three different positions (i.e., the IAD
                                      Director, regional directors, and regional unit supervisors) 23 to approve
                                      investigative work plans. Inconsistent program guidance could negatively
                                      impact the work conducted in an investigation and compromise its results.

                                      Departmental regulation 24 states that management should ensure that
                                      resources are used consistent with agency and departmental missions and that
                                      reliable and timely information is obtained, maintained, reported, and used
                                      for decision making. The Agency’s directive for developing policy 25 does not
                                      include procedures for ensuring uniformity and consistency among all issued
                                      guidance.

                                      During our review we noted inconsistencies in guidance in several
                                      operational areas. For example, guidance documents contradicted one another
                                      on the individual responsible for approving investigation work plans. One
                                      guidance document, 26 made the IAD Director responsible for approving the
                                      plans; whereas, a second guidance document 27 stated that the regional
                                      director in consultation with the legal specialist will approve investigation
                                      work plans. This document also allowed delegation of the approval function
                                      to unit supervisors for investigations that are of a routine nature. Lastly, a
                                      third guidance document 28 stated that work plans are approved by unit
                                      supervisors, if necessary.


22
     GIPSA issued 26 directives, 26 standard operating procedures, and a revised employee manual regarding P&SP activities.
23
     Unit Supervisors oversee those P&SP regional employees, such as auditors or marketing specialists, who perform investigations and other regulatory
     functions.
24
     USDA Departmental Regulation 1110-002, Management Accountability and Control, dated April 14, 2004.
25
     P&SP Directive 9700-13, “Developing Program Policies” dated March 2, 2006.
26
     P&SP Directive 9700-3, “Investigation Responsibilities for the Regional Managers, Division Directors, and the Deputy Administrator,” dated
     March 2, 2006.
27
     Employee Manual, -Investigations, II. B., Steps in Planning an Investigation, dated October 25, 2007.
28
     Standard Operating Procedure, Regional Offices-2 “Investigations,” dated May 31, 2007.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                           Page 10
                                        In response to our prior recommendation, GIPSA issued guidance 29 which
                                        required legal specialists to consult with OGC on investigations that were
                                        either novel, complex, or related to competition concerns. P&SP staff in one
                                        region did not adhere to this guidance for two competition cases (e.g.,
                                        anti-competitive conduct and a hotline complaint). This staff followed
                                        subsequent instructions 30 that stated that legal specialists “may” consult with
                                        OGC on these types of investigations. The inconsistency between these two
                                        guidance documents could lead to P&SP not consulting with OGC on
                                        investigations and limit the potential for successful enforcement action.
                                        GIPSA should ensure that current guidance on this matter is consistent with
                                        the corrective action the agency agreed to take in response to our prior
                                        recommendation.

                                        We also noted minor inconsistencies in the guidance provided to staff for
                                        initiating rapid response investigations. For those situations which could
                                        cause imminent harm to livestock producers, such as threat of financial
                                        failure or substantial industry impact, P&SP initiates a rapid response
                                        investigation. The SBP states rapid responses begin within two business days,
                                        but an existing instruction 31 indicates a two calendar day response time. 32

                                        Policy documents for analyzing custodial accounts were also inconsistent.
                                        For example, when analyzing custodial accounts, one instruction 33 states that
                                        usually two well-documented custodial analyses (30 days apart) will be
                                        sufficient evidence to support an allegation of account shortages. However,
                                        another document 34 states that account shortages must have occurred at least
                                        60 days apart. 35 Definitive guidance is critical to ensuring that sales proceeds
                                        are available to pay livestock producers.

                                        P&SP management stated there was no formal defined process to ensure
                                        uniformity in policy. While management stated they update policy to
                                        incorporate any changes, this was not always successful as a management
                                        control. Management acknowledged the need for uniform policy to ensure
                                        consistent operations among regional offices and Headquarters divisions and
                                        stated that it planned to revise the purpose of certain policy documents and
                                        eventually rescind some of the guidance currently in place. GIPSA
                                        established the Change Control Working Group (CCWG) to administer a
                                        structured procedure to evaluate change requests and facilitate
                                        implementation of those changes which enhance the efficiency and
                                        effectiveness of operations. However, our review of the CCWG charter and
                                        standard operating procedure showed that there is still no process to ensure

29
     P&SP Directive 9700-20, “Management of Investigations,” dated March 20, 2006.
30
     Standard Operating Procedures, Regional Offices-2, “Investigations,” dated May 31, 2007.
31
     Standard Operating Procedures, Regional Offices-2, “Investigations,” dated May 31, 2007.
32
     Subsequent to fieldwork, the SOP was updated to indicate a two calendar day response time.
33
     Employee Manual, dated October 25, 2007.
34
     P&SP Directive 9700-11, “Dates Between Custodial Account Analyses,” dated December 14, 2007.
35
     The policy was corrected subsequent to on site fieldwork to require that account shortages must have occurred at least 60 days apart.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                             Page 11
                    the uniformity of established policies. P&SP should implement procedures to
                    provide consistency in guidance across all policy documents to ensure
                    uniformity in programmatic operations across all locations.

Recommendation 4
                    Establish and implement a defined process for reviewing, approving, and
                    issuing program guidance, both new or revised, to ensure consistency across
                    all P&SP guidance.

                    Agency Response

                    GIPSA officials concurred with Recommendation 4. The agency has taken a
                    number of steps to ensure consistency across all P&SP guidance. On April 9,
                    2008, P&SP established a Change Control Working Group (CCWG) to
                    receive and process all requests for changes in regulation, operational policy,
                    and automation. The amended CCWG Charter specifically assigns the group
                    responsibility for ensuring consistency in all P&SP guidance. Also, GIPSA’s
                    Employee Library Team is in the final stages of integrating all directives,
                    notices, standard operating procedures, process and sub-process models, and
                    the P&SP Employee Manual into a single integrated web-based repository
                    called the Employee Library. This comprehensive resource will be available
                    to ensure accessibility of consistent guidance to all GIPSA personnel. A beta
                    version of the Employee Library was posted on GIPSA’s internal web site for
                    testing in April 2009; the final version will be deployed by July 1, 2009.

                    OIG Position

                    We accept GIPSA’s management decision.

Recommendation 5
                    Analyze current program guidance (i.e., directives, manuals and operating
                    procedures) to identify and correct inconsistencies contained in the guidance.

                    Agency Response

                    GIPSA’s Employee Library Team, established in April 2008, is currently
                    completing its work of identifying and correcting inconsistencies in guidance
                    as part of the creation of the Employee Library. As noted in the response to
                    Recommendation 4; the final version of the Employee Library is expected to
                    be deployed by July 1, 2009. The Change Control Working Group,
                    established on April 9, 2009, will receive and process all requests for changes
                    in regulation, operational policy, and automation, to ensure consistency in all
                    P&SP guidance.




USDA/OIG-Audit No. 30016-0002-Hy                                                          Page 12
                    OIG Position

                    We accept GIPSA’s management decision.




USDA/OIG-Audit No. 30016-0002-Hy                             Page 13
Section 2.             Prior Recommendations Not Completely Implemented
Finding 3                              ……….
                                       P&SP did not completely implement corrective actions for 4 of 10 prior audit
                                       recommendations (see exhibit B). The agency implemented policies to
                                       address our prior recommendations; however, P&SP did not have a process
                                       in place to ensure these policies were carried out. In addition, senior GIPSA
                                       management did not implement adequate controls to ensure staff adhered to
                                       policies. As a result, GIPSA did not have accurate and complete data for
                                       managing its investigations, a process for monitoring the need for regulatory
                                       change, and an internal review function to effectively monitor agency
                                       activity.

                                       Departmental regulation 36 requires agencies to implement agreed-upon
                                       corrective actions that are associated with audit recommendations in a timely
                                       manner. GIPSA needs to institute controls to ensure that its staff complies
                                       with established policies. This should include an action plan to assess and
                                       report that procedures are effectively implemented.

                                       •    P&SP Did Not Ensure Investigative Data Was Accurate and Complete

                                            In response to our prior recommendation, GIPSA agreed to implement
                                            procedures for recording investigative data and ensuring that the data
                                            recorded were accurate and complete. This did not occur because P&SP
                                            allowed different organizational units (e.g., regions and divisions) to use
                                            their own tracking systems and did not implement processes to reconcile
                                            the data in their systems. We noted inconsistencies in the status of
                                            investigations in the tracking systems used by PLD and the regional
                                            offices. We also noted that the PLD system did not contain complete data.

                                            Review of the R&I Log 37 data and supporting documentation found 76 of
                                            119 investigations (64 percent) had data that were not accurate, complete,
                                            and consistent. Data entry controls were not adequate to keep the R&I
                                            Log free of errors and contradictory data. Subsequent to fieldwork, a
                                            P&SP official stated that the data were still useful. However, our review
                                            identified data inaccuracies and inconsistencies such as: (1) inconsistent
                                            treatment of similar cases; (2) reasons for closure were inconsistent with
                                            supporting documentation; and (3) hotline complaints were either not
                                            identified or identified as being initiated by GIPSA. Additionally, GIPSA
                                            did not institute compensating controls to override this lack of data entry
                                            control. Employees were allowed to close investigations without
                                            supervisory approval. As a result, we concluded that P&SP’s data

36
     Departmental Regulation 1720-001, Audit Followup and Management Decision, April 22, 2002.
37
     Migrated from the former Complaints & Investigations Log, the R&I Log is intended to include data such as identifiers, subject, staff assigned, and
     dates for key processing milestones. However, P&SP’s PLD and regional offices each developed additional systems to track investigation processing
     information in order to fulfill their needs.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                            Page 14
                        systems continue to be unreliable as a control for investigation
                        management.

                        GIPSA plans to replace its tracking systems with PSAS during calendar
                        years 2008 and 2009 as part of a software modernization effort.
                        Currently, management anticipates that the implementation of PSAS will
                        improve investigation tracking and will ultimately integrate aspects of
                        investigation fieldwork, supervision, reporting, review, and resolution.
                        Once implemented, the PSAS data warehouse will be a single system of
                        record and replace four current P&SP data systems. These systems
                        include: (1) the business identification system, which is used to maintain
                        data of business entities regulated by P&SP; (2) a scales database, which
                        is used to keep records of livestock scales and their testing data; (3) the
                        R&I Log, which is used to maintain data from investigation and
                        regulatory activities; and (4) the PLD Litigation Referral Pending
                        Database.

                        OGC is participating as a user of the new R&I Log case tracking module
                        within PSAS. As discussed in Finding 1, this portion of PSAS is expected
                        to be ready for deployment in early Summer 2009. We could not fully
                        assess PSAS because it is currently under development; however, we did
                        find it is being developed according to the requirements specified in the
                        contract’s statement of work. In addition, agency officials agreed to the
                        need for data accuracy and reliability in PSAS. Beginning in
                        January 2009, all new R&I activities have been input into PSAS. To
                        ensure data integrity, the R&I log was restricted to only allow updates to
                        cases that were open prior to January 2009. No new entries can be made
                        in the R&I log.

                    •   P&SP Legal Specialist Did Not Always Consult with OGC

                        In response to our prior recommendation, GIPSA issued guidance
                        requiring consultation with OGC on investigations that were either novel,
                        complex, or related to competition concerns. As discussed in Finding
                        2, one legal specialist in one region did not consult with OGC on two
                        competition cases because the specialist relied on current guidance that
                        did not require consultation. The current guidance, issued in May 2007,
                        was not consistent with the guidance issued in March 2006 in response to
                        our prior recommendation. GIPSA should ensure that guidance on this
                        matter is consistent with the corrective action the agency agreed to take in
                        response to our prior recommendation.

                    •   Need for Regulatory Changes Not Adequately Monitored

                        We previously reported that GIPSA had not established a mechanism to
                        evaluate the need for regulatory changes in P&SP. In response to our
USDA/OIG-Audit No. 30016-0002-Hy                                                           Page 15
                                         recommendation, the agency agreed to implement a process for reviewing
                                         investigative findings and monitoring industry activity to determine if
                                         regulatory reforms are needed. During our current review, we found that
                                         while GIPSA issued policies to establish a process for monitoring the
                                         need for regulatory change, not all policies were followed.

                                         GIPSA implemented guidance 38 that places responsibility on individual
                                         employees to provide management with information on industry practices
                                         or issues that may require regulatory reform. Under this policy, managers
                                         are responsible for reviewing the employee recommendations and
                                         determining whether action is necessary. This process provides the
                                         opportunity for direct input on the observed need for reform.

                                         In order to establish a comprehensive process to review investigative
                                         findings and monitor industry activity, GIPSA issued additional
                                         guidance 39 which required management to prepare a periodic summary
                                         analysis of completed investigations to assess the need for rulemaking or
                                         regulation review. PLD was charged with performing this analysis;
                                         however, PLD officials stated they did not perform formal summary
                                         analysis as prescribed. They address issues as they arise during the
                                         normal course of business, but they do not perform the summary analyses
                                         necessary to find commonality in the employee recommendations
                                         required by the directive. 40

                                         In March 2006, PLD formed a Regulation Review task force to review all
                                         of the existing Packers and Stockyards regulations and identify
                                         regulations that needed updates. It also identified areas where regulations
                                         were needed but did not exist. GIPSA established the task force to serve
                                         for a temporary period to do a review and make recommendations for
                                         changes to regulations. According to the PLD Director, to date, several
                                         proposed and one final rule have been published from the work the task
                                         force started. Other regulations are moving through the rulemaking
                                         process and are expected to be published this year. 41 On November 28,
                                         2006, GIPSA transferred responsibility for regulation review from the
                                         task force to PLD. There remains no recurring summary analysis of the
                                         need for regulatory reform. The lack of a systematic process to review
                                         investigative findings, monitor industry activity, and timely determine the
                                         need for regulatory reform limits GIPSA’s effectiveness in protecting
                                         members of the livestock, meat, and poultry industries from unfair,
                                         deceptive, and anti-competitive practices.

38
   P&SP Directive 9700-21, “Determining Need for Regulatory Reform,” dated March 30, 2006.
39
   P&SP Directive 9700-3, “Investigation Responsibilities for the Regional Managers, Division Directors, and the Deputy Administrator,” dated
   March 2, 2006.
40
   P&SP Directive 9700-21, “Determining Need for Regulatory Reform,” dated March 30, 2006.
41
   The task force reviewed regulations related to P&SP operations, including: poultry contract content, live poultry weighing and feed weighing, and
   general bonding provisions.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                        Page 16
                                     •    GIPSA Did Not Implement an Effective Internal Review Function

                                          We previously reported that GIPSA needed an internal review function
                                          incorporating control and monitoring activities of P&SP activities. The
                                          agency issued guidance 42 which established a structured internal review
                                          process and required the Deputy Administrator to monitor corrective
                                          actions to ensure appropriate and timely resolution. 43 According to the
                                          Assistant Deputy Administrator, upper management decided to rely on
                                          the regions to implement corrective action. Headquarters provided no
                                          oversight to the regions. Agency officials stated that corrective actions
                                          may be reviewed at a later date when other internal reviews are
                                          conducted. P&SP required regional offices to respond to critical
                                          recommendations in writing. However, they conducted no systematic
                                          followup in the regional offices to ensure corrective actions were
                                          completed.

                                          In addition, GIPSA’s internal reviews did not always address
                                          recommendations to the appropriate level for corrective action. For
                                          example, one report to a regional director recommended that he align the
                                          P&SP SBP with a specific operating procedure. However, this was the
                                          responsibility of the Director of PLD; therefore, the regional director
                                          could not take action to implement this recommendation and he did not
                                          bring this to anyone else’s attention.

                                     To ensure the integrity of P&SP operations and activities, GIPSA needs to
                                     implement additional controls to ensure that data are recorded accurately and
                                     completely. The agency also needs to strengthen procedures for monitoring
                                     the need for regulatory change and for ensuring corrective actions
                                     recommended in internal reviews are completed.

Recommendation 6
                                     Implement procedures to ensure the integrity of data recorded in PSAS.

                                     Agency Response

                                     GIPSA officials concurred with Recommendation 6. PSAS, which is
                                     replacing two investigative file databases that were used for the past 20 years,
                                     includes an automated logic testing component that ensures data integrity by
                                     analyzing key data required for case management prior to assigning case files
                                     for additional processing.


42
     P&SP Directive 9700-37, “Management Accountability Program,” dated January 23, 2007.
43
     Internal reviews were performed by teams comprised of a contractor, P&SP employees, and the P&SP Assistant Deputy Administrator. Employees
     were not allowed to assess their own regions.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                    Page 17
                    GIPSA began formally monitoring PSAS data integrity on April 14, 2009. On
                    May 11, 2009, P&SP hired a data systems specialist who is responsible for
                    monitoring data and for developing monthly case file status reports for
                    management review. The first reports will be distributed to managers and the
                    GIPSA administrator by July 1, 2009. All monitoring, training, and future
                    software revisions will be coordinated to ensure the integrity of data in PSAS.

                    OIG Position

                    We accept GIPSA’s management decision.

Recommendation 7
                    Implement controls to ensure that responsible officials follow established
                    procedures for monitoring (a) the need for regulatory change and
                    (b) corrective actions prescribed in internal reviews. Also, P&SP should
                    provide an action plan with specific milestone dates to assess and report that
                    these procedures are effectively implemented.

                    Agency Response

                    GIPSA officials concurred with Recommendation 7. PLD assumed
                    responsibility for rulemaking activity in October 2006. GIPSA established a
                    Regulatory Review Taskforce to review all P&SP regulations. The
                    taskforce’s findings, dated May 25, 2007, were accepted by GIPSA
                    management. GIPSA tasked PLD with developing regulatory work plans for
                    the recommended changes. The Change Control Work Group was tasked to
                    ensure the ongoing assessment of the P&SP regulations and an electronic
                    workflow to allow any employee to recommend changes to the regulations.
                    Those recommendations are electronically tracked with management
                    oversight. This action was completed in April 2009. GIPSA regularly meets
                    with stakeholders on the need for regulatory change. In May 2009, the PLD
                    director’s position description was amended to specifically give him the
                    responsibility for evaluating the need for regulatory change and reporting
                    needed changes to management. GIPSA is modifying its internal reviews
                    directive to require a formal response and followup reporting on all
                    outstanding audit findings until corrected. The amended directive is due by
                    August 2009.

                    OIG Position

                    We accept GIPSA’s management decision.




USDA/OIG-Audit No. 30016-0002-Hy                                                          Page 18
Scope and Methodology
                                        Our audit examined P&SP operations from FY 2006 through the first quarter
                                        of FY 2008 (October 1, 2005 through December 31, 2007), the most current
                                        data available when we initiated our review. We examined applicable laws,
                                        regulations, and policies and reviewed processes related to program
                                        implementation. We conducted our review at P&SP Headquarters and OGC’s
                                        Trade Practices Division in Washington, DC, and at the three P&SP regional
                                        offices in Aurora, Colorado; Atlanta, Georgia; and Des Moines, Iowa. We
                                        reviewed case file documents from P&SP Headquarters, P&SP regional
                                        offices, and OGC. P&SP Headquarters, P&SP regional offices, and OGC
                                        used different databases to track and manage investigations. The databases
                                        were fragmented, making it difficult to track investigation progress from
                                        beginning to end. The fragmented databases limited our ability to fully assess
                                        GIPSA’s investigation management. Finally, we followed up on the actions
                                        GIPSA took to implement the 10 recommendations in our prior audit
                                        report. 44 Fieldwork was performed from March 2008 to September 2008. We
                                        updated our understanding of the findings reported through February 2009.

                                        R&I Log Investigative Data

                                        We obtained data for 2,068 investigations from the R&I Log and reviewed
                                        information for active investigations during our scope period for
                                        completeness. Of the 2,068, a total of 123 investigations were forwarded
                                        from the regions to Headquarters on or before September 30, 2007, and
                                        remained open as of December 31, 2007. We reviewed the 123 investigations
                                        to determine if work was appropriately categorized and if data were accurate
                                        and consistent with respect to supporting documentation retained by the
                                        regional offices.

                                        We judgmentally selected a sample of 32 of 329 active investigations
                                        identified as referred to Headquarters in the R&I Log and/or Headquarters
                                        tracking worksheets in our scope period. We selected the sample after review
                                        of electronic data to obtain a mixture of investigation types. 45 We conducted
                                        our review to determine if investigations were effectively examined, reported,
                                        and resolved.

                                        We obtained worksheets maintained by each of the three regional offices to
                                        track NOV followup activity. We reviewed the data for completeness and
                                        performed analyses to determine if followup activity was executed timely.


44
     Management and Oversight of the Packers and Stockyards Program, Audit No. 30601-0001-Hy, issued January 10, 2006.
45
     Investigation types include: Failure to pay; Failure to pay when due; Issuing insufficient funds for purchase; Insolvency; Custodial Accounts; Trusts;
     Failure to complete registration; Inadequate bond or equivalent; Failure to maintain adequate records; Failure to complete or provide accurate annual
     reports; and Weight.

USDA/OIG-Audit No. 30016-0002-Hy                                                                                                                  Page 19
                    P&SP Headquarters

                    We interviewed 13 GIPSA officials at Headquarters to include senior
                    management, division directors, and staff level employees. The purpose of
                    these discussions was to gain an understanding of their oversight roles and
                    responsibilities in promoting anti-competitive investigations. In addition to
                    our discussions, we reviewed program guidance provided to agency
                    employees on how to perform their work related activities. This guidance was
                    documented through standard operating procedures, an employee manual,
                    position descriptions, and relevant policies and directives.

                    We obtained and reviewed data from PLD’s independently maintained
                    investigation tracking system for completeness. We judgmentally selected
                    from our universe of 2,068 investigations 5 percent (9 of 169) of the
                    investigations identified in PLD’s data as received during our review period
                    to determine if PLD appropriately and effectively reviewed the reports and
                    pursued proper courses of action based on their contents. We selected the
                    investigations after reviewing the data to obtain a mixture of case types and
                    disposition decisions.

                    OGC – Trade Practices Division

                    To address Congressional concerns regarding the working relationship
                    between GIPSA and OGC and to determine OGC’s role in the investigative
                    process, we interviewed three OGC attorneys. This included the Assistant
                    General Counsel for the Trade Practices Division and two staff attorneys.
                    Specifically, we interviewed the staff attorneys to determine the work
                    performed for P&SP cases. In conjunction with the OGC Assistant General
                    Counsel, we reviewed a judgmental sample of 15 open trade practice cases to
                    gain an understanding of OGC’s process for handling P&SP cases. The
                    15 cases were selected from a universe of 83 open cases that were with OGC
                    as of December 31, 2007 per OGC data. These 15 cases represented all P&SP
                    cases that had been referred to OGC for action for 600 or more elapsed days.

                    P&SP Regional Offices

                    We visited each of the three P&SP regional offices to determine if GIPSA’s
                    controls were sufficient to ensure that anti-competitive and unfair practices in
                    the livestock and poultry markets were accurately and effectively examined,
                    reported, and resolved. We reviewed organizational charts at each of the
                    regional offices and examined the regional internal control structures.
                    Additionally, we interviewed regional office employees, including senior
                    managers, unit supervisors, and staff level employees to gain an
                    understanding of regional office operations, work flow, internal controls, and
                    review processes.

USDA/OIG-Audit No. 30016-0002-Hy                                                           Page 20
                    Our audit was conducted in accordance with Government Auditing
                    Standards. These standards require that we plan and perform the audit to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for
                    findings and conclusions based on our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions.




USDA/OIG-Audit No. 30016-0002-Hy                                                       Page 21
Exhibit A – Congressional Concerns Regarding P&SP Operations
                                                                                                Exhibit A – Page 1 of 2

In response to the request from the Ranking Member of the U.S. Senate Committee on Agriculture, Nutrition,
and Forestry, OIG addressed questions in six areas ranging from adequacy of professional expertise to exertion
of pressure to discourage investigations.

 #     Question                                      Results
 1     Does OGC have the staffing and                According to the OGC Assistant General Counsel, staffing
       professional expertise to handle complex      was adequate given the current workload from P&SP and
       investigations and enforcement actions        Perishable Agricultural Commodities Act casework for which
       under the competition provisions of the       the Trade Practices Division is responsible. The Assistant
       Act?                                          General Counsel also stated that her staff had the professional
                                                     expertise to handle complex investigations. In response to a
                                                     prior OIG audit recommendation, P&SP economists and OGC
                                                     attorneys attended training conducted by DOJ’s Anti-Trust
                                                     Division in 2006 and the Federal Law Enforcement Training
                                                     Center in 2007. Since then, the Assistant General Counsel
                                                     said that attorney training is done on the job. She explained
                                                     that given the limited resources and the number of cases,
                                                     extensive antitrust training for all attorneys is not cost-
                                                     effective. We determined that during our scope period
                                                     (October 1, 2005 through December 31, 2007) GIPSA
                                                     referred a total of 177 cases to OGC, of which 9 cases had a
                                                     competition basis. The two trial attorneys we interviewed
                                                     were working on a competition case. However, they stated
                                                     that they did not have significant experience with competition
                                                     cases.
 2     Will OGC and GIPSA cooperate to assign        GAO suggested a teamwork approach for investigations
       lead roles to OGC attorneys specifically      between GIPSA economists and OGC attorneys. Through
       for     more      complex      competition    related discussions and policy review, we determined GIPSA
       investigations, as suggested by GAO?          consults with OGC attorneys early in anti-competition
                                                     investigations to provide feedback during planning and case
                                                     development. As reported in Finding 2, GIPSA needs to
                                                     ensure that it issues clear and consistent policy on this matter.
 3     Do conflicts or disagreements over            We noted no conflicts in competition actions through
       interpretation of the Act exist between       discussions with GIPSA and OGC officials.
       GIPSA and OGC that could undermine
       the development and execution of
       competition        investigation      and
       enforcement actions?
 4     Did problems in the working relationship      We found no problems in the working relationship and
       and communications between OGC and            communication between OGC and GIPSA.
       GIPSA prevent GIPSA from referring
       cases to OGC or cause GIPSA to develop
       bureaucratic systems to avoid even
       having to work with OGC?
 5     Have OGC personnel at any time                We found no indication that OGC has attempted to exert
       pressured or discouraged present or           pressure on present GIPSA employees with respect to
       former GIPSA employees from pursuing          influencing case work. We did not contact former GIPSA
       investigations     of     anti-competitive    employees as part of this review.
       practices?



USDA/OIG-Audit No. 30016-0002-Hy                                                                             Page 22
Exhibit A – Congressional Concerns Regarding P&SP Operations
                                                                                       Exhibit A – Page 2 of 2


#    Question                                   Results
6    Does OGC interpret too strictly or too     There were no indications that OGC limited competition
     narrowly     the   Act’s    competition    cases. During our scope period, GIPSA referred a total of
     provisions and relevant case law? Is       177 cases to OGC, of which 9 cases had a competition basis.
     OGC too cautious or hesitant in pursuing   Of the nine competition cases, eight were accepted for
     competition cases?                         enforcement and one was rejected for cause.




USDA/OIG-Audit No. 30016-0002-Hy                                                                    Page 23
Exhibit B – Implementation of Prior Audit Recommendations
                                                                                               Exhibit B – Page 1 of 1

                                                                               Effective              Current
Rec.                                                                       Corrective Action           Audit
                        Prior Recommendation
No.                                                                          Implemented              Finding
1      Develop and implement a policy for defining investigations.                Yes
       This policy should require GIPSA personnel to differentiate
       between activities to perform onsite reviews of companies from
       those to monitor publicly available data and send routine letters
       to request company-specific information.

2      Develop and implement procedures for recording data in the                 No                      3
       complaints and investigations log. These procedures should
       specify the information to be recorded and how the accuracy and
       completeness of this information will be validated.

3      Develop and implement a well defined process for timely                    Yes
       identifying the work to be performed, preparing and approving
       work plans, performing the fieldwork and analysis, and reporting
       on the results. This should include controls for conducting
       preliminary investigations to obtain sufficient facts to decide
       whether to proceed with further investigation.

4      Develop and implement an effective system to communicate                   Yes
       expectations regarding P&SP’s investigative process and
       specific investigations.

5      Develop and implement an organizational structure that                     Yes
       appropriately divides the responsibility for approving work
       plans, managing the investigations, and reporting the results
       between regional managers and the Deputy Administrator.

6      Develop and implement a structure for receiving, reviewing, and            Yes
       acting on policy issues and requests for guidance.

7      Develop and implement a process for reviewing investigative                No                      3
       findings and monitoring industry activity to determine if
       regulatory reforms are needed.

8      Develop and implement procedures that empower the legal                    No                      3
       specialists to consult with OGC. The procedures should establish
       parameters on the types of issues that must be discussed with the
       Deputy Administrator before consultation with OGC.
9      Develop and implement a strategy and process for effective                 Yes
       implementation of changes in P&SP operations.
10     Develop and implement an internal review function to monitor               No                      3
       and report on agency activities. This should include the
       implementation of controls to monitor and report on corrective
       actions agreed upon with entities external to P&SP, such as OIG
       and GAO.




USDA/OIG-Audit No. 30016-0002-Hy                                                                              Page 24
Exhibit C – Efforts to Identify Potential Anti-Competitive Activity
                                                                                                                         Exhibit C – Page 1 of 1



In 2006 we reported 46 that GIPSA did not complete competition investigations due to the lack of clear
processes to identify work, approve work plans, perform investigative analysis, and report results. We
found that in response to recommendations from our prior report, GIPSA implemented procedures to:

        •    Identify work to be performed, conduct initial fact finding, and complete decision making on
             whether or not there was sufficient cause to proceed with an investigation;
        •    Provide a basis for preparing an investigative work plan and identifying the work to be
             conducted;
        •    Outline required work plan reviews; and
        •    Identify the roles and responsibilities between the Deputy Administrator, division directors,
             and regional managers in approving work plans, managing investigations, and reporting the
             results between the regional manager and Deputy Administrator.

Regional officials generally agreed that obstacles to investigations due to centralization of decision
making within GIPSA Headquarters had been alleviated.

We also determined GIPSA performed activities to identify potential anti-competitive activity for
investigation. This included monitoring of market related conditions such as procurement and sales
patterns and pricing to identify potential anti-competitive activity for investigation. We found
anti-competition investigative activity during our audit scope period was limited. Although we did not
analyze its methodologies, 47 P&SP data identified 43 of 2,068 applicable investigative cases
(2 percent) as related to restriction of competition. Only 6 of the 43 cases (14 percent) were identified
as agency initiated. We further identified that 9 of the 177 cases (5 percent) referred to OGC were for a
deceptive practice or were anti-competitive in nature.

GIPSA officials acknowledged their analytical reviews of structural characteristics of markets did not
always identify anti-competitive cases. According to agency officials, there are not many
anti-competitive cases. For example, a February 2008 GIPSA report on its cattle market monitoring
effort identified just two potential competition violations for further investigation. In one case, GIPSA
filed a complaint against the packers for operating in violation of the Act. After investigating the other
case, GIPSA issued three NOVs in September 2008 to the involved parties. GIPSA officials also
ceased the monitoring of the swine market for potential anti-competitive activity as it had not delivered
results. GIPSA officials stated that they are currently revisiting underlying methodologies for market
monitoring and are consulting with outside agencies for assistance. They anticipate implementing
revised methods in Spring 2009.




46
     Management and Oversight of the Packers and Stockyards Program, No. 30601-01-Hy, issued January 10, 2006.
47
     We did not find it necessary to examine GIPSA’s methodologies because GIPSA officials acknowledge that their current analytical reviews did not
     always identify anti-competitive cases. They anticipate implementing revised methods in Spring 2009.


USDA/OIG-Audit No. 30016-0002-Hy                                                                                                        Page 25
Exhibit D – Agency Response
                                   Exhibit D – Page 1 of 9




USDA/OIG-Audit No. 30016-0002-Hy                Page 26
Exhibit D – Agency Response
                                   Exhibit D – Page 2 of 9




USDA/OIG-Audit No. 30016-0002-Hy                Page 27
Exhibit D – Agency Response
                                   Exhibit D – Page 3 of 9




USDA/OIG-Audit No. 30016-0002-Hy                Page 28
Exhibit D – Agency Response
                                   Exhibit D – Page 4 of 9




USDA/OIG-Audit No. 30016-0002-Hy                Page 29
Exhibit D – Agency Response
                                   Exhibit D – Page 5 of 9




USDA/OIG-Audit No. 30016-0002-Hy                Page 30
Exhibit D – Agency Response
                                   Exhibit D – Page 6 of 9




USDA/OIG-Audit No. 30016-0002-Hy                Page 31
Exhibit D – Agency Response
                                   Exhibit D – Page 7 of 9




USDA/OIG-Audit No. 30016-0002-Hy                Page 32
Exhibit D – Agency Response
                                   Exhibit D – Page 8 of 9




USDA/OIG-Audit No. 30016-0002-Hy                Page 33
Exhibit D – Agency Response
                                   Exhibit D – Page 9 of 9




USDA/OIG-Audit No. 30016-0002-Hy                Page 34
Informational copies of this report have been distributed to:

Government Accountability Office                                (1)
Office of Management and Budget                                 (1)
Office of the Chief Financial Officer
        Director, Planning and Accountability Division          (1)
